            OFFICE OF
     THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION



        SINGLE AUDIT OF THE
  COMMONWEALTH OF PENNSYLVANIA
     FOR THE FISCAL YEAR ENDED
            JUNE 30, 2005

    November 2006   A-77-07-00004




  MANAGEMENT
ADVISORY REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                      SOCIAL SECURITY
MEMORANDUM
Date:      November 22, 2006                                                Refer To:

To:        Candace Skurnik
           Director
           Audit Management and Liaison Staff

From:      Inspector General

Subject:   Management Advisory Report: Single Audit of the Commonwealth of Pennsylvania for
           the Fiscal Year Ended June 30, 2005 (A-77-07-00004)


           This report presents the Social Security Administration’s (SSA) portion of the single
           audit of the Commonwealth of Pennsylvania for the Fiscal Year ended June 30, 2005.
           Our objective was to report internal control weaknesses, noncompliance issues, and
           unallowable costs identified in the single audit to SSA for resolution action.

           Ernst and Young, LLP and the Pennsylvania Auditor General jointly performed the audit.
           The Department of Health and Human Services (HHS) desk review concluded that the
           audit met Federal requirements. In reporting the results of the single audit, we relied
           entirely on the internal control and compliance work performed by Ernst and Young and
           the Pennsylvania Auditor General, and the reviews performed by HHS. We conducted
           our review in accordance with the Quality Standards for Inspections issued by the
           President’s Council on Integrity and Efficiency.

           For single audit purposes, the Office of Management and Budget (OMB) assigns
           Federal programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s
           Disability Insurance (DI) and Supplemental Security Income (SSI) programs are
           identified by CFDA number 96. SSA is responsible for resolving single audit findings
           reported under this CFDA number.

           The Pennsylvania Bureau of Disability Determination (BDD) performs disability
           determinations under SSA’s DI and SSI programs in accordance with Federal
           regulations. The BDD is reimbursed for 100 percent of allowable costs. The
           Department of Labor and Industry is the Pennsylvania BDD’s parent agency.
Page 2 – Candace Skurnik

The single audit reported that BDD did not maintain documentation required by the
OMB Circular A-87 1 for personnel costs. Specifically, signed semiannual updates to job
descriptions and other certification documents were not obtained to support that BDD
employees worked solely on SSA’s programs during the audit period (Attachment A,
pages 1 and 2). We previously reported this weakness to SSA and recommended that
SSA determine whether BDD’s current procedures for documenting employee work
activities are sufficient to ensure the accuracy of personnel costs charged to its
programs. 2 In response to our recommendation, SSA concluded that BDD’s current
procedures satisfy the requirements of OMB Circular A-87 since it certifies personnel-
related information quarterly on the SSA-4514, Time Report of Personnel Services.
Therefore, we will not make a recommendation.

The single audit also disclosed the following findings that may impact the BDD’s
operations although they were not specifically identified to SSA. I am bringing these
matters to your attention as they represent potentially serious service delivery and
financial control problems for the Agency.

•     The Commonwealth did not comply with the Cash Management Improvement Act
      regulations and procedures for clearance pattern requirements and interest
      calculations (Attachment B, pages 1 through 10).

•     Adequate documentation was not maintained to support that new service providers
      were checked for debarment or suspension status on the List of Parties Excluded
      from Federal Procurement and Nonprocurement Programs (Attachment B,
      pages 11 and 12).

Please send copies of the final Audit Clearance Document to Shannon Agee and
Rona Lawson. If you have questions contact Shannon Agee at (816) 936-5590.




                                                          Patrick P. O’Carroll, Jr.

Attachments




1
    OMB Circular A-87, Cost Principles for State, Local and Indian Tribal Governments.
2
 Single Audit of the Commonwealth of Pennsylvania for the Fiscal Year Ended June 30, 2004
(A-77-06-00008).
Attachment A
  Page 1 of 2
Attachment A
  Page 2 of 2
Attachment B
Page 1 of 12
Attachment B
Page 2 of 12
Attachment B
Page 3 of 12
Attachment B
Page 4 of 12
Attachment B
Page 5 of 12
Attachment B
Page 6 of 12
Attachment B
Page 7 of 12
Attachment B
Page 8 of 12
Attachment B
Page 9 of 12
Attachment B
Page 10 of 12
Attachment B
Page 11 of 12
Attachment B
Page 12 of 12
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
